SBA OIG Recovery Act Oversight Plan

 Agency Plans and Public Reporting
 Project Title:                                    Objectives:                                                               Source:
 Assessment of Agency Recovery Act Plans           ▪ Assess whether the Agency has developed an agency wide plan, as         OMB Guidance §§ 2.7- 2.8,
                                                   well as plans for each program named in ARRA                              Appendix 3
                                                   ▪ Determine whether the recovery plans include all of the reporting
                                                   elements specified by OMB guidelines
 SBA's Compliance with Public Reporting            ▪ Determine whether SBA has created a portal where the public can find    OMB Guidance §§ 2.1, 2.4-
 Requirements                                      and analyze information and report potential fraud, waste and abuse       2.6, 2.10, 2.21; Bulletin No. 09-
                                                   pertaining to the Recovery Act                                            02
                                                   ▪ Determine whether SBA is timely submitting weekly and monthly
                                                   financial reports to OMB that fulfill OMB reporting requirements
                                                   ▪ Assess data quality controls to ensure reporting is complete and
                                                   accurate


 Governance and Risk Management
 Project Title:                                    Objectives:                                                               Source:
 Semi-annual Review of Agency Progress and         ▪ Determine whether SBA is making sufficient progress in implementing     Self-initiated
 Issues Surrounding SBA's Implementation of        ARRA
 ARRA                                              ▪ Assess the risk impact of any delays
 Evaluation of Applicability of the Single Audit   ▪ Determine whether SBA has performed a risk analysis of the 504 and      OMB Guidance §§ 5.6-5.7
 Act to Microloans and CDCs                        microloan programs in deciding whether these programs should be
                                                   designated as Single Audit major programs
 Critical Unresolved Audit Recommendations         ▪ Determine whether SBA has taken appropriate action to address           OMB Guidance § 3.10
 in Program Areas Funded by the Recovery           weaknesses or deficiencies disclosed by prior audits related to program
 Act                                               areas funded by the Recovery Act and related activities needed to
                                                   safeguard funds, including:
                                                      ▪ Credit programs
                                                      ▪ Grant and contract administration
                                                      ▪ Information technology and financial management




As of 4/27/09                                                                                                                                                1
SBA OIG Recovery Act Oversight Plan

 Governance and Risk Management (continued)
 Project Title:                              Objectives:                                                            Source:
 SBA's Risk Mitigation Plans for            ▪ Evaluate whether SBA's risk mitigation plans appropriately identify and ARRA §§ 501-506, 508-509;
 Eliminating/Reducing Fees on SBA Loans and address all risk areas required by OMB for each of the following          OMB Guidance §§ 3.6-3.13
 Increasing the SBA Guaranty Share          programs:
                                               ▪ Eliminating/reducing fees on SBA loans (§ 501)
                                               ▪ Increasing the SBA guaranty share on 7(a) loans (§ 502)
                                               ▪ Secondary market guaranty authority for 504 loans (§ 503)
                                               ▪ Refinancing debt on 504 loans (§ 504)
                                               ▪ Expanding leverage capacity of Small Business Investment
                                                 Companies (§ 505)
                                               ▪ Business stabilization loan program (§ 506)
                                               ▪ Expanding the surety bond program (§ 508)
                                               ▪ Loans to secondary market broker-dealers (§ 509)
                                               ▪ Expansion of the microloan program


 Budget Execution
 Project Title:                              Objectives:                                                            Source:
 KPMG Audit of SBA's FY 2009 Financial       ▪ Determine whether SBA has adequate controls in place to provide          OMB Guidance §§ 4.2-4.19
 Statements - Statement of Budgetary         reasonable assurance that ARRA funds are properly controlled and that
 Resources                                   the ARRA budget process is executed in accordance with Federal
                                             guidance
                                             ▪ Determine whether SBA's OCFO has established general ledger
                                             accounts to properly track recovery fund activity and has properly
                                             accounted for fixed administrative costs
                                             ▪ Determine whether recorded spending authority from offsetting
                                             collections are available for obligation and referenced to the appropriate
                                             authorizing legislation




As of 4/27/09                                                                                                                                      2
SBA OIG Recovery Act Oversight Plan

 Grants
 Project Title:                                 Objectives:                                                              Source:
 Audit of Grants for Technical Assistance in the ▪ Determine whether SBA officials are awarding and administering           OMB Guidance §§ 5.1, 5.6
 Microloan Program                               grants for technical assistance in a manner that will result in meaningful
                                                 and measurable outcomes
                                                 ▪ Evaluate adequacy of safeguards to ensure that funds are used for
                                                 their intended purpose
                                                 ▪ Assess the timeliness of awards and whether SBA has initiated
                                                 additional oversight to mitigate additional risks associated with the
                                                 Recovery Act
 KPMG Audit of SBA's FY 2009 Financial           ▪ Determine whether SBA performs internal control assessments to           OMB Guidance §§ 5.2, 5.4-
 Statements - Grant Expenses Testwork            evaluate the risk of waste, fraud, and/or abuse and identifies strategies 5.7, 5.9
                                                 to prevent and timely detect waste, fraud, and abuse in grants
                                                 ▪ Determine whether SBA has a system of quality controls for accrued
                                                 grant liabilities in the financial statement footnotes
                                                 ▪ Validate the accuracy of accrual amounts for a statistical sample of
                                                 grants


 Contracts
 Project Title:                                 Objectives:                                                              Source:
 Award and Administration of ARRA Related       ▪ Determine whether SBA has awarded contracts under ARRA in a             OMB Guidance §§ 3.8, 6.1
 Contracts                                      manner that maximizes opportunities for small businesses to compete
                                                and that maximizes competition
                                                ▪ Evaluate whether ARRA contracts are being administered in a way that
                                                mitigates cost, schedule, and performance risks and delivers meaningful
                                                and measurable outcomes
 SBA Controls Over $20 Million in IT            ▪ Determine whether proper acquisition, planning, and oversight controls OMB Guidance §§ 6.1-6.5
 Expenditures under ARRA                        have been deployed
                                                ▪ Determine whether proper reporting of solicitation and contract awards
                                                has occurred
 Acquisition Workforce at SBA                   ▪ Evaluate whether the SBA acquisition workforce is adequately trained, OMB Guidance §§ 3.8, 6.1,
                                                certified, and equipped to meet the Agency's needs for awarding and       6.6
                                                administering contracts under ARRA
 SBA Use of the Federal Procurement Data        ▪ Determine whether SBA is properly reporting contract actions related to OMB Guidance §§ 1.5, 2.6
 System - Next Generation                       ARRA in FPDS-NG




As of 4/27/09                                                                                                                                           3
SBA OIG Recovery Act Oversight Plan

 Loans and Loan Guaranties
 Project Title:                               Objectives:                                                            Source:
 Quarterly Reviews of Loans Made Under the    ▪ Determine whether loans were originated and closed in accordance        ARRA §§ 501, 502, 504, 506
 Recovery Act                                 with SBA's rules and regulations and commercially prudent lending
                                              standards, to include:
                                                 ▪ 7(a) loans
                                                 ▪ 504 loans that include refinancing
                                                 ▪ Business stabilization loans
 Quarterly Review of ARRA's Impact on         ▪ Analyze lender participation, market characteristics, early defaulted   Self-initiated
 Increased Lending and Secondary Market       loans, and liquidity levels to determine effectiveness of ARRA provisions
 Liquidity
 KPMG Audit of SBA's FY 2009 Financial        ▪ Determine whether SBA has adequate controls in place over guarantee ARRA § 502; OMB Guidance
 Statements - Credit Receivables - Loan       loan approvals, purchases, modifications and charge-offs.             §§ 7.1, 7.3-7.6
 guaranties
 Periodic Review of the Use of SBA's          ▪ Determine whether SBA has established an adequate process for         ARRA § 503
 Secondary Market Authority on 504 Loans      evaluating applications for guaranties on pools of 504 first lien loans
                                              ▪ Determine whether SBA’s guaranties were properly applied to 504
                                              loans and the pools of guaranteed loans were sold to third party
                                              investors
 Purchase Reviews of Guaranties on Pools of   ▪ Determine whether the purchase review process adequately identifies ARRA § 503
 First Lien Position 504 Loans                compliance issues that would impact SBA's guaranties
 Impact and Use of Increased SBIC Leverage    ▪ Determine whether SBICs are using increased leverage for the          ARRA § 505
                                              purposes directed by ARRA
                                              ▪ Assess the impact of increased leverage on small businesses
                                              ▪ Determine whether commonly controlled SBICs have exceeded
                                              maximum outstanding leverage limits
 Audit of Prior Approval and PSB Sureties     ▪ Determine whether surety bond guarantees approved by Prior Approval ARRA Title V; § 508
                                              and PSB Sureties under ARRA are issued in accordance with SBA's
                                              policies and standards accepted by the surety industry
                                              ▪ Determine whether claims paid on surety bond guarantees approved
                                              under ARRA were allowable, allocable, and reasonable
 Quarterly Reviews of the Quality of          ▪ Determine whether loans were originated and closed in accordance      ARRA § 509
 Underwriting on Loans to Secondary Market    with SBA program policies and procedures and commercially prudent
 Broker-Dealers                               lending standards
 Semi-annual Reviews of Proceed Use by        ▪ Determine whether borrowers used loan proceeds to finance their       ARRA § 509
 Secondary Market Broker-Dealers              inventory of government guaranteed loans




As of 4/27/09                                                                                                                                        4
SBA OIG Recovery Act Oversight Plan

 Loans and Loan Guaranties (continued)
 Project Title:                               Objectives:                                                            Source:
 Audit of SBA's Microloan Program Expansion ▪ Determine whether loans were originated and closed in accordance       ARRA Title V
 Under ARRA                                 with SBA program policies and procedures
                                            ▪ Determine whether intermediaries provided management, marketing,
                                            and technical assistance in accordance with SBA requirements
                                            ▪ Determine whether SBA has taken effective risk mitigation actions to
                                            minimize unnecessary program losses
 SBA's Response to the Increased Oversight ▪ Assess actions taken by SBA to increase oversight of programs           OMB Guidance §§ 7.1, 7.3
 Requirements of ARRA                       created or modified by ARRA
                                            ▪ Determine the adequacy of onsite lender and CDC reviews
 Quarterly Audits of Purchased Loans Made   ▪ Determine whether purchased loans were originated, closed, and         ARRA §§ 501, 502, 504, 506
 Under the Recovery Act                     liquidated in accordance with SBA's rules and regulations and
                                            commercially prudent lending standards, to include:
                                                ▪ 7(a) loans
                                                ▪ 504 loans that include refinancing
                                                ▪ Business stabilization loans




As of 4/27/09                                                                                                                                     5
SBA OIG Recovery Act Oversight Plan

 Additional Activities
 Project Title:                             Objectives:                                                         Source:
 Ongoing Monitoring of SBA's ARRA           ▪ Obtain and document weekly briefings with SBA officials           Self-initiated
 Implementation Plan
 OIG Consultation with the Agency on ARRA   ▪ Identify strategies to prevent or timely detect waste, fraud or abuse ARRA §§ 501-506, 509; OMB
 Program Plans and Implementing Rules and   ▪ Evaluate and comment on SBA's program plans, regulations, and         Guidance §§ 2.8, 7.3, 7.4
 Guidance                                   procedures for new programs created by ARRA, including:
                                                ▪ Secondary market guaranty authority for 504 loans
                                                ▪ Business stabilization program
                                                ▪ Loans to secondary market broker-dealers
                                            ▪ Evaluate whether program outputs and outcomes are clear and
                                            measurable
                                            ▪ Evaluate and comment on SBA's proposed modifications to regulations
                                            and procedures for existing programs, including:
                                                ▪ Eliminating/reducing loan fees
                                                ▪ Increasing guarantee shares
                                                ▪ Refinancing debt on 504 loans
                                                ▪ Expanding leverage capacity for SBICs
 Outreach Activities                        ▪ Inform the SBA lending community about the impacts of ARRA on SBA
                                            programs and OIG's perspective on increased areas of risk (NAGGL
                                            and NADCO)




As of 4/27/09                                                                                                                                   6
